<html>
<title> - OPPORTUNITIES TO ADVANCE RENEWABLE ENERGY AND ENERGY EFFICIENCY EFFORTS IN THE UNITED STATES</title>
<body><pre>[Senate Hearing 116-324]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-324

                   OPPORTUNITIES TO ADVANCE RENEWABLE
                  ENERGY AND ENERGY EFFICIENCY EFFORTS
                          IN THE UNITED STATES

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 21, 2019

                               __________


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-309 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
        
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA McSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
            Chester Carson, Senior Professional Staff Member
                Sarah Venuto, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
          Brie Van Cleve, Democratic Professional Staff Member
                           
                           C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Manchin III, Hon. Joe, Ranking Member and a U.S. Senator from 
  West Virginia..................................................     3
Gardner, Hon. Cory, a U.S. Senator from Colorado.................     5

                               WITNESSES

Simmons, Hon. Daniel R., Assistant Secretary, Energy Efficiency 
  and Renewable Energy, U.S. Department of Energy................     6
Keller, Dr. Martin, Laboratory Director, National Renewable 
  Energy Laboratory..............................................    16
Conant, Dan, Founder and CEO, Solar Holler.......................    26
Hartke, Dr. Jason, President, Alliance to Save Energy............    35
Grunau, Bruno C., Chief Programs Officer, Cold Climate Housing 
  Research Center................................................    44

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Alliance to Save Energy, et al.:
    Letter for the Record........................................   120
Conant, Dan:
    Opening Statement............................................    26
    Written Testimony............................................    28
    Question for the Record......................................   107
Gardner, Hon. Cory:
    Opening Statement............................................     5
Grunau, Bruno C.:
    Opening Statement............................................    44
    Written Testimony............................................    47
    Responses to Questions for the Record........................   113
Hartke, Dr. Jason:
    Opening Statement............................................    35
    Written Testimony............................................    37
    Responses to Questions for the Record........................   108
Heinrich, Hon. Martin:
    Chart entitled ``PPA prices by contract execution date'' by 
      Wood Mackenzie Power and Renewables, dated 5/21/2019.......    60
Keller, Dr. Martin:
    Opening Statement............................................    16
    Written Testimony............................................    18
    Responses to Questions for the Record........................    93
Manchin III, Hon. Joe:
    Opening Statement............................................     3
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Simmons, Hon. Daniel R.:
    Opening Statement............................................     6
    Written Testimony............................................     9
    Responses to Questions for the Record........................    78

 
                   OPPORTUNITIES TO ADVANCE RENEWABLE
                      ENERGY AND ENERGY EFFICIENCY
                      EFFORTS IN THE UNITED STATES

                              ----------                              


                         TUESDAY, MAY 21, 2019

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:31 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. We are coming to order as we begin our 
hearing to examine opportunities to advance renewable energy 
and energy efficiency efforts here in this country.
    I want to start by acknowledging, really, the very 
significant progress that we have seen in renewable energy in 
recent years. We have seen the costs of many technologies, 
whether it is wind, whether it is solar, or something else, 
decline considerably. Many renewables are now cost competitive 
without subsidies in certain parts of the country, and that is 
leading to greater investment. In 2018, U.S. corporations broke 
previous records by signing contracts for 8.6 gigawatts of wind 
and solar production.
    We have also made great progress on energy efficiency. This 
is also another good story and one that, unfortunately, is not 
told near often enough. According to the American Council for 
an Energy Efficient Economy, energy efficiency has helped 
reduce energy use by about 50 percent relative to what it would 
have been had 1980 patterns continued. These reductions are 
saving Americans. They are saving them approximately $2,500 per 
year. That makes a difference for our families.
    We are making progress, but I think we know that we have 
plenty of areas where we can continue to improve and increase 
efficiency.
    Some of the most impressive work, and I am going to totally 
brag on my State here and the innovation and the pioneering 
that we are seeing coming out of the State, and particularly at 
the Cold Climate Housing Research Center (Center). For example, 
the Center is designing and building homes that use 80 percent, 
80 percent, less energy than comparable homes that are being 
built without their assistance. So think about what that means 
in a cold place, oftentimes pretty dark, to recognize those 
kinds of energy efficiencies. And then, when you compound that 
with the extraordinarily high cost of heating and just power 
generation in the State of Alaska, we are really making a 
difference to families and communities.
    I am pleased to be able to welcome back the Center's Chief 
Program Officer, Mr. Bruno Grunau. Bruno is going to tell us 
more about the good work they are doing in the Arctic and rural 
Alaska.
    We are also joined by Mr. Daniel Simmons, who is the 
Assistant Secretary of Energy (DOE) for the Office of Energy 
Efficiency and Renewable Energy. It is good to have you back 
before the Committee.
    Dr. Martin Keller is the Director of the National Renewable 
Energy Lab (NREL). We love having our lab directors here and we 
appreciate, very much, the fact that you were up in Fairbanks 
for National Lab Day.
    Mr. Dan Conant is the Founder and President of Solar 
Holler. We welcome you.
    And Dr. Jason Hartke is the President of the Alliance to 
Save Energy, an organization that many of us are familiar with.
    Thank you all for being here today ready to talk about the 
important work that you are doing as it relates to increasing 
efficiency and deploying cleaner technologies.
    I am going to provide Committee members with some of the 
little highlights that make a difference in, again, a State 
like ours, where our energy costs are so high.
    The community of Yakutat in southeast Alaska, 600 people--I 
think that is a little bit low--a fishing community with no 
access by road. In 2013 they decided, we have to get control of 
our costs, because the cost of food in the grocery store was so 
high because of what it cost them to just keep the lights on at 
the store and keep the freezer frozen. So they pieced together 
some federal and state funding. They invested over $600,000 in 
efficiency upgrades at the local school, at the courthouse and 
city office. At the elementary school alone, they invested 
nearly $200,000 to upgrade all of their lighting to LED. And 
what they are looking at in savings for that little community 
is about $70,000 a year. That buys them another teacher. That 
buys them another teacher and an aide, so in that community it 
is a huge difference.
    I also tell the story very often of a beautiful little 
fishing community called Pelican in southeastern Alaska. Again, 
pretty small, and there used to be about 100 year-round 
residents there. But what was happening in Pelican is even 
though it was a fishing community, the fishermen were just 
bypassing Pelican because the ice that they would take to keep 
their fish cool and fresh, the ice cost them too much money, 
because their power generation was by diesel powered generation 
and so you have to put the diesel in the boat, get it down 
there, and you can't even afford to have ice. Well if you don't 
have ice, you don't have a community. What they then did, small 
hydropower from Pelican Creek that had made power possible 
since the 1940s, they looked to address the reality of that 
small hydro. They invested in a new penstock, new turbines, 
modern powerhouse. But that then allowed one local family to 
start a commercial fish buying and processing business five 
years ago with five employees. This summer, that little 
processing company has 24 employees. Keep in mind this is a 
community of 100 so a quarter of the people there are now 
working there. They have signed a 25-year lease on an old crab 
plant with plans to expand and grow further. They anticipate 
shipping out $1 million worth of fish this summer. And all of 
that is made possible because they had clean, renewable 
hydropower, and the continued investment in making that 
resource more abundant and more affordable.
    So when we talk about the small, incremental innovation, 
and again, small hydro, many would say it is not that 
innovative, but it can transform communities. It can make them 
sustainable. It can allow people to live and work where they 
want to.
    Those are just a couple stories from my home state. I would 
venture to say that in every one of yours you have small 
examples where you are putting families to work, you are 
allowing a community to be more sustainable.
    Our challenge here is to ensure that the costs of new 
technologies continue to decline and to make sure that upfront 
costs don't stall out or need or lack that beneficial 
investment.
    We have great experts here today. I am looking forward to 
hearing your thoughts on what we can be doing to move to that 
next level.
    I will turn to my colleague, Senator Manchin, but I am 
looking forward to a very interesting hearing this morning.

              STATEMENT OF HON. JOE MANCHIN III, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Chair Murkowski, I want to thank you for 
holding this hearing today and all of you for being here to 
help us have a better understanding of how we can help.
    Energy efficiency is low-hanging fruit. We all know that, 
and renewable energy is something that we all strive to 
maximize in every effort and every area that we live.
    I would like to welcome our witnesses, and I want to thank 
all of you for discussing how these technologies can help us 
address some of the greatest challenges like climate change and 
energy cost.
    I would like to give a special welcome to Dan Conant, a 
native West Virginian whose company is Solar Holler. I think he 
gave it away where he was from when he put the holler in there. 
He is an excellent example of the work ethic and pragmatism 
that West Virginians are applying to the climate problem.
    We need more examples of this in our State and across the 
country whether we are talking about efficiency, renewables, 
energy storage or other climate solutions. It is also critical 
that we work to remove the barriers small energy companies like 
Solar Holler face as they seek to build competitive businesses. 
Together, I hope we identify how to overcome these barriers and 
others so that new businesses can thrive, workers can find jobs 
in these growing fields and we can put to use all the tools 
available to solve climate change.
    I firmly believe that we can grow the U.S. economy while 
simultaneously reducing our greenhouse gas emissions if we 
invest in commonsense solutions. We need policies that promote 
adoption of cost-efficient solutions that already exist in all 
scales, whether that is a wind farm or an LED light bulb, and 
our policies should ensure a path toward commercialization into 
the markets.
    I am glad that we have Assistant Secretary Dan Simmons here 
today to tell us about how we can bring down the cost of these 
technologies. According to the Department of Energy, for every 
$1 invested in the Office of Energy Efficiency and Renewable 
Energy, federal taxpayers have seen a return of $20. That's 20 
to 1. Low-cost energy is the engine that drives our economy and 
gives us our competitive edge, but as states like West Virginia 
and Alaska face the growing threat of climate change, we also 
must ensure our energy is ultimately carbon-free.
    On the home front, as of the last survey in 2015, one in 
three U.S. households face challenges paying energy bills. 
These burdens fall disproportionately on low income families, 
particularly in rural economies like West Virginia.
    DOE's responsibility is not just to drive down the cost of 
energy technologies but also reduce the energy needed to run 
our businesses and our homes. That is why programs like the 
Appliance Standards Program and the Weatherization Assistance 
Program have been so important. They help the pocketbook and, 
most importantly, the climate.
    Last year, the International Energy Agency (IEA) determined 
that energy efficiency policies alone could potentially achieve 
more than 40 percent of the emission cuts needed to reach 
global emission reduction goals. That is why Senator Hoeven and 
I recently introduced the All-of-the-Above Federal Building 
Energy Conservation Act with support from a broad stakeholder 
coalition, including the Alliance to Save Energy. Forty percent 
of the nation's energy is consumed in buildings, far more than 
either the transportation or industrial sectors. In fact, the 
Federal Government is the single largest energy consumer in our 
country. Our bill would also repeal prohibition on using fossil 
fuel, something that DOE can never implement. The bill would 
lower the Federal Government's carbon footprint and energy 
bills providing long-term savings to taxpayers. This is low-
hanging fruit, and it just makes good sense.
    In addition to improving the energy efficiency, we will 
need the deployment of more low-carbon and carbon-free 
technologies. Renewable energy, including hydropower, currently 
provides nearly 18 percent of power across the U.S. This number 
is growing and we need to support that growth and work on 
necessary solutions, like storage.
    At one point, my little state boasted the largest wind farm 
east of the Mississippi at Mount Storm in Grant County. We want 
to find ways to welcome more renewable energy to states like 
West Virginia, including solar, which is so underused in our 
state, hydropower and wind. Fossil fuels will need to continue 
to provide critical baseload as we increase penetration of 
renewables across the country. And so, we are looking at the 
how to burn them in the cleanest way possible.
    The electric grid is undergoing rapid transformation. It is 
becoming more complex and more flexible and more diverse in 
terms of energy resources. We need to continue to invest in 
clean technologies that will keep the grid reliable and that 
means, also, safe from cybersecurity threats and resilient to 
extreme weather events. I look forward to working with Chair 
Murkowski and members of this Committee on that.
    We have a lot to cover today, and I want to thank you again 
for being here.
    Our little State of West Virginia has been blessed with so 
much energy, and it has helped this country be the great 
country that it is over all these years. We have had an 
abundance of coal. We still have probably the finest coking 
coal in the world. That is in demand all over the world.
    We have an ocean of energy under us in natural gas and the 
wet gas--butane, propane and ethane--that comes from that. We 
have not developed, and Dan knows that, we have not developed 
our solar program the way we should, and I think we can rapidly 
ascent that. Wind is what it is in our state, and it has done 
quite well. There is a lot going on there.
    So we just thank all of you for being here, and we are 
trying to find an all-of-the-above solution.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Manchin.
    Senator Gardner, I know that you are very proud of the 
National Renewable Energy Lab that you host there in Colorado. 
I don't know if you would want to make an introduction of Dr. 
Keller.

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. I would, thank you very much.
    Dr. Keller, welcome to the Committee. Thank you, Madam 
Chair, and I appreciate the opportunity.
    Dr. Keller survived--how many inches of snow at your house 
this morning----
    Dr. Keller. Six or seven.
    Senator Gardner. ----six or seven inches of snow, so come 
back to Colorado. The ski resorts are going to reopen for the 
summer. It is going to be a good year.
    [Laughter.]
    It is my pleasure to introduce Dr. Keller, Director of the 
National Renewable Energy Laboratory.
    I was out at NREL, I guess recently, in the past month, but 
also last summer when Secretary Perry visited and we saw, 
firsthand, the growth at NREL under Martin's leadership.
    The public-private partnerships NREL has been so successful 
in developing and the strategic growth at the National Wind 
Technology Center which is now named the Flat Irons Campus 
where it has become much more than wind by integrating and 
testing many different types of energy technologies together 
for future grids. It truly is amazing, and I hope members of 
the Committee will have a chance to go out and see the work 
that they are doing.
    Martin, the ninth Director at NREL, joined the lab from Oak 
Ridge National Laboratory where he served as Associate 
Laboratory Director for Energy and Environmental Sciences which 
included programs in bio sciences, energy technology and 
manufacturing. In 2006, Dr. Keller earned his Doctorate in 
Microbiology--Summa Cum Laude, I might add (most of us 
graduated Thank the Laude) from the University of Regensburg in 
Germany. He was appointed a Fellow at the American Association 
for the Advancement of Science in 2013 and multiple boards, 
advisory panels, including the Science Advisory Board for the 
Council on Competitiveness.
    Dr. Keller, thank you very much for being here today, and 
welcome to all the witnesses.
    The Chairman. Thank you, Senator.
    Let's go ahead and begin with our very esteemed and just 
good energy panel here this morning.
    As I mentioned, we are joined by Daniel Simmons, Assistant 
Secretary for Office of Energy Efficiency and Renewable Energy 
at the U.S. Department of Energy. Dr. Keller with NREL has been 
introduced. Mr. Conant has been introduced as the Founder and 
President of Solar Holler. Jason Hartke, President of the 
Alliance to Save Energy. And I have had an opportunity to share 
with you the great work that is done at the Cold Climate 
Housing Research Center ably led by Mr. Grunau and our friend, 
Jack Hebert. So, Mr. Grunau, welcome to you as well.
    I would ask you to try to keep your comments to about five 
minutes. Your full statements will be included as part of the 
record, and then we will have an opportunity for questions and 
answers once you have completed your opening statememnts.
    Mr. Simmons, if you would like to begin the panel, welcome.

   STATEMENT OF HON. DANIEL R. SIMMONS, ASSISTANT SECRETARY, 
  ENERGY EFFICIENCY AND RENEWABLE ENERGY, U.S. DEPARTMENT OF 
                             ENERGY

    Mr. Simmons. Thank you.
    Madam Chairman Murkowski, Ranking Member Manchin and 
members of the Committee, thank you for the opportunity to 
examine the opportunities to advance energy and energy 
efficient efforts in the United States.
    As the Assistant Secretary for the Office of Energy 
Efficiency and Renewable Energy, EERE, I am responsible for 
overseeing a broad portfolio of renewable energy, energy 
efficiency and transportation programs.
    We live in an exciting time for energy technologies. In 
fact, I think we live in the most exciting time for energy 
technologies in the history of the world with more competitive 
and affordable sources of energy than ever before. Costs of 
numerous technologies have declined, have massively declined, 
in recent years, including solar photovoltaics, onshore wind, 
electric vehicle batteries and LED lights, just to name a few. 
We have also seen major improvements in energy efficiency of 
America's homes, businesses and industries.
    Technological innovation has contributed to these dramatic 
changes. Thanks in part to research and development at the 
Department of Energy and the national laboratories, the United 
States leads the world in reducing carbon dioxide emissions 
since 2005. The electric power sector CO<INF>2</INF> emissions 
declined 28 percent over this time period to their lowest level 
since 1987.
    Affordable, reliable energy gives America a competitive 
edge needed to excel in a rapidly changing global economy. But 
affordable energy does not matter if we can't integrate these 
sources of energy into the electric grid.
    This is why, in addition to energy affordability, EERE is 
focusing on advancing grid reliability and resilience through 
energy integration and storage. To execute on these priorities, 
EERE has issued over $935 million in competitive funding 
opportunities and selection since December 2008. And also, as 
of a couple weeks ago, EERE has released all of our funding 
opportunity announcements for FY19. I'm very proud of the work 
that all of the staff has done in EERE to execute on those 
funding opportunity announcements.
    One of our major priorities is the Advanced Energy Storage 
Initiative. As we work to integrate more resources into the 
nation's evolving energy system, flexibility of both generation 
and consumption is critical. This is why DOE announced the 
Advanced Energy Storage Initiative as part of the FY20 budget 
request. Coordinated across DOE's Applied Energy Offices, this 
initiative builds on EERE's Beyond Batteries Initiative from 
FY19. The initiative will tackle the challenges associated with 
integrating diverse energy sources such as large amounts of 
variable wind and solar into the grid.
    For example, EERE's Water Power Technology Office is 
working to improve the flexibility of hydropower and pump 
storage to increase the value of hydropower as a balancing 
resource to the grid. Hydro is currently the largest source of 
energy storage on the grid today.
    Also, EERE's Fuel Cell Technology Office is conducting 
research to produce hydrogen with low cost wind and solar, as 
well as nuclear generation to prevent curtailment of variable 
renewables and improve the economics of existing baseload 
resources.
    Also, EERE's Building Technology Office is focused on 
integrated advanced sensors and controls with flexible energy 
efficient technologies to advance the role that buildings play 
at providing services to the grid. In fact, the application 
deadline for the funding opportunity announcement on this 
building to grid work closes today.
    To address the need to integrate diverse energy resources, 
DOE is seeking $22 million in FY20 to accelerate the conversion 
of the National Wind Technology Center at the National 
Renewable Energy to the Flat Irons Campus. This Flat Irons 
Campus will include an experimental microgrid capable of 
testing grid integration at a megawatt scale. These advanced 
capabilities will allow DOE to test a suite of technologies 
under the Advanced Energy Storage Initiative and leverage the 
site's future power capacity of 19.9 megawatts with the 
capabilities of NREL's Energy System Integration facility.
    To effectively integrate all of these technologies 
together, EERE is also focused on emerging challenges of 
cybersecurity and sustainability. As more EERE technologies are 
integrated with the electric grid, we are working with the 
Office of Cybersecurity, Energy Security, and Emergency 
Response to address emerging cyber risks to design new 
technologies with cybersecurity as a requirement from the 
ground up. To that end, EERE is developing a multi-year program 
plan for cybersecurity per the FY19 Congressional direction.
    Increased demand for wind, solar and battery storage is 
also driving demand for critical minerals and rare earth 
elements as this Committee heard last week. To ensure 
sustainable growth for EERE technologies, DOE is focused on 
determining demand or reducing demand from foreign sources of 
critical minerals through domestic production and processing, 
reuse, recycling of earth and use of earth abundant substitutes 
while addressing end of life considerations.
    In conclusion, as the U.S. energy system evolves, so too 
must DOE's focus. While EERE has historically been focused on 
driving down the cost of individual technologies, today we are 
focused more than ever on integrating these technologies 
together as that is one of the real challenges for the future, 
that we need to expand on our vision as well to address the 
value that each source can provide to the grid. EERE is focused 
on opportunities to improve our flexibility of energy 
generating resources as well as flexibility of energy consuming 
resources to advance affordable, reliable and clean energy for 
all.
    Thank you for the opportunity to appear before the 
Committee today and to discuss the Office of Energy Efficiency 
and Renewable Energy. I look forward to your questions.
    [The prepared statement of Mr. Simmons follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you so much, Mr. Simmons.
    Dr. Keller.

 STATEMENT OF DR. MARTIN KELLER, LABORATORY DIRECTOR, NATIONAL 
                  RENEWABLE ENERGY LABORATORY

    Dr. Keller. Madam Chair Murkowski, Ranking Member Manchin, 
members of the Committee, thank you for this opportunity to 
examine future opportunities to advance renewable energy in the 
United States.
    Senator Gardner, thank you so much for this nice 
introduction, so I can skip all this now.
    [Laughter.]
    So, in my view, the subject of today's hearing could not be 
more timely or more important. Today, electric generation from 
renewable technologies are no longer alternative solutions but 
are becoming significant contributors to our power supply.
    According to the Energy Information Administration's Short-
Term Energy Outlook, wind and solar are expected to be the 
fastest growing sources of electricity generation for the next 
two years. While many advances have been made in new energy 
technology R&D and commercialization, our nation faces 
challenges including population growth, increased urbanization 
and the growing global middle class. It will strain our ability 
to generate affordable, sustainable energy we need with global 
demand expected to double by 2050.
    So how do we meet these challenges reliably, affordably and 
responsibly? The answer is continued R&D on the most abundant, 
affordable, efficient and sustainable energy resources and 
technologies possible while strengthening and modernizing our 
national grid.
    The grid of today was designed for large-scale, centralized 
power systems, but with an increasing number of distributed 
energy sources and grid-connected devices come systems 
operations challenges and cyber vulnerabilities.
    NREL researchers are developing security and power 
management design principles for the future grid, one that can 
operate autonomously and support high penetrations of wind, 
solar and other distributed energy resources that operate very 
differently than conventional technologies.
    It is also imperative to look at ways to make our energy 
system more flexible, responsive and resilient. Microgrids are 
one way NREL is exploring to increase overall grid resilience 
by isolating both the impact of threats and the magnitude of 
recovery efforts. Decades of work at NREL has driven 
unprecedented advances in solar technologies. And while 
innovation is happening at a record pace, further research is 
needed for solar to reach its full potential.
    The time is right to accelerate research into materials 
such as perovskites, that can be used to produce solar cells 
quickly and inexpensively using proven, high-speed 
manufacturing techniques. The same focus is needed on 
concentrating solar power which promises to be cost-competitive 
with significant amounts of energy storage using new field 
designs, advanced manufacturing concepts and novel materials.
    In wind, we are collaborating with universities, other 
national laboratories and industry to drive innovations that 
promise to produce energy at half the cost of current wind 
generation in the United States. To achieve this goal, we are 
working to increase the size of turbines at the heights at 
which they sit to sizable, scientific and engineering 
challenges that could create the largest rotating machine ever 
built. Research is also needed into new materials at advanced 
manufacturing techniques for onsite turbine blade production 
that will reduce cost, speed, deployment and allow for the 
harvesting of our best wind resources.
    Bio energy continues to represent a significant opportunity 
for a sustainable, low-carbon energy and fuels. Key to this 
area is the development of infrastructure, compatible fuel 
technologies from biomass that enable affordable, low-carbon 
gasoline, diesel and short-range alternatives which we have 
been achieving in collaboration with industry partners.
    Recently, we signed a $100 million, ten-year agreement with 
the National Energy Technology Laboratory and Exxon Mobil to 
research ways to bring biofuels and carbon capture and storage 
to commercial scale across the transportation, power generation 
and industrial sectors. Combined efforts like these could 
expand the U.S. energy portfolio and strategy.
    So in conclusion, national labs such as NREL, along with 
our partners, are engines for America's innovation. These are 
the institutions that keep our nation in the leadership role on 
the world's scientific stage. It is therefore crucial for 
economic and national security that we maintain our leadership 
in this area by supporting advancing our national lab system. 
If we do not, it is certain that our nation's competitors will 
be waiting to step in and take our place.
    Thank you so much.
    [The prepared statement of Dr. Keller follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Dr. Keller.
    Mr. Conant, welcome.

           STATEMENT OF DAN CONANT, FOUNDER AND CEO, 
                          SOLAR HOLLER

    Mr. Conant. Thank you, Senator Murkowski, Senator Manchin, 
for inviting me, and all the members of the Committee.
    I'm honored and humbled today to be able to represent a new 
industry that's growing rapidly in Appalachia. And today I 
wanted to share a couple of stories with you, the story of how 
we re-imagined who solar is for, the story of how we started 
training the first generation of solar installers in Appalachia 
and a couple of points about what Congress can do to help 
further our mission of bringing clean, renewable energy within 
reach of everybody.
    My name is Dan Conant. I'm the Founder and CEO of Solar 
Holler. We're based in my hometown of Shepherdstown, population 
1,500, and we also have operations in Huntington, West 
Virginia. I also come to you as a former advisor to the U.S. 
Department of Energy's SunShot Initiative.
    For generations, Appalachia has powered American prosperity 
with coal. And at Solar Holler we are doing everything we can 
to ensure that we continue powering America for the next 100 
years, just this time with their sunshine.
    From the moment I moved back to my hometown to start up our 
company six years ago, we have relentlessly pursued innovative 
approaches that make solar the most affordable source of energy 
for all of our neighbors across Appalachia. Due to this 
dedication and approach, we are a rapidly growing team of 
incredibly dedicated, talented and passionate folks. In the 
past year, we've grown from 10 staff to 35, which might not 
sound like a lot but it is a huge deal in rural West Virginia 
to have a growing company of 35. Our team models, designs, 
finances and builds beautiful solar projects that are going to 
last for generations while helping families, non-profits and 
businesses across our region cut their power bills.
    Our dedication to making solar the most affordable source 
of energy for the folks who need it most was shown in our very 
first project, a groundbreaking community effort with my 
congregation at the Shepherdstown Presbyterian Church. That 
project was so cool because of a first-of-its-kind crowdfunding 
approach where we never asked for a dime from anybody, instead 
we asked people to let us install a remote control on their 
electric water heaters.
    We had 100 water heaters in our tiny little town. One 
hundred families and businesses agreed to support the project 
by letting us aggregate a network of water heaters into a 
virtual power plant on the PJM grid where turning the water 
heaters on and off every two seconds with fluctuations of the 
frequency regulation market. And then we're using the revenues 
from this power plant to fund a revolving loan fund to support 
solar on churches and homeless shelters and other amazing 
community organizations around our state.
    The Chairman. Let me just tell you, that is cool.
    Mr. Conant. Thank you.
    The very first project with Shepherdstown Presbyterian 
would have cost the congregation over $50,000, instead it cost 
them $1 and we launched it five years ago. Over 25 years, it's 
going to save the church over $100,000. That's $100,000 that 
can go toward the mission of the congregation which is to 
clothe and care for and feed our neighbors.
    We had to get that creative and develop an approach like 
that because when we attempted to do the first power purchase 
agreement in West Virginia, we were prevented from doing so by 
the West Virginia Public Service Commission because it was at 
odds with our state granted utility monopolies and without 
those PPAs, the IRS has ruled that solar projects on non-
profits are ineligible for the federal investment tax credits. 
Additionally, the USDA Rural Energy for America program which 
administers loan guarantees and grants for businesses across 
rural America, they specifically will not support any non-
profit project. So we just had to get creative with what we had 
to work with.
    But word in West Virginia got around fast that this was a 
really cool project and things were happening. So within a week 
we actually outstripped the capacity of everybody who knows how 
to install solar in West Virginia. It took us less than one 
week to get there.
    In 2015 we launched Rewire Appalachia, a workforce 
development and training program, in partnership with Coalfield 
Development Corporation. Through this collaboration we've given 
young folks whose families have been in the mines for 
generations a hand up into the solar industry. We invest in 
their Associates Degrees at the local community college. We 
paid for their electrical journey worker courses. We enrolled 
them in their NABCEP solar certification training work, and 
they got to join our full-time crews earning real living wages 
as we went around deploying projects on non-profits around West 
Virginia.
    At Solar Holler we like to say it takes all kinds to pull a 
solar project off. Of course, you need the talented 
electricians and roofers but it also takes designers, 
engineers, warehouse workers, procurements, project managers. 
It really takes all kinds to pull these projects off.
    And ever since then, we've been building that entire supply 
chain, that entire industry from scratch, even in the coal 
fields of West Virginia.
    Yeah, so, that's a little bit about our story, and I'd look 
forward to taking questions from you all later.
    [The prepared statement of Mr. Conant follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Conant, that is an impressive 
story and one very important for this Committee to hear. We 
appreciate the innovation.
    Dr. Hartke, welcome.

           STATEMENT OF DR. JASON HARTKE, PRESIDENT, 
                    ALLIANCE TO SAVE ENERGY

    Dr. Hartke. Thank you, Chairman Murkowski, Ranking Member 
Manchin, members of the Committee. Thank you for the 
opportunity to testify today.
    We greatly appreciate the Committee's bipartisan leadership 
and strong focus on energy efficiency as a leading solution to 
our nation's energy and environmental challenges.
    The Alliance, as many of you know, has a long history in 
energy policy. We've been part of every major bipartisan energy 
efficiency bill enacted into law since our founding in 1977, 
and we're honored to have an honorary board made up of 14 
Members of Congress, several of whom serve on this Committee, 
including the Chairwoman, Senator Alexander and Senator Wyden.
    On a personal note, I just wanted to mention that my 
grandfather, Vance Hartke, also had the high honor of serving 
in the Senate, representing the great State of Indiana for 18 
years. I just have a deep appreciation and respect for this 
legislative body and the work you do in your public service.
    As President of the Alliance, I'm humbled by the enormous 
opportunity in front of us to transform our energy sector 
through energy efficiency and I'm proud of the progress we've 
made.
    Energy efficiency is the absolute workhorse of clean 
energy. No solution is more potent, more compelling or more 
multifaceted. In fact, if it weren't for our efficiency gains 
over the last 40 years, the United States would be using 60 
percent more energy right now--60 percent. Think about how much 
money your constituents are saving as a result of those gains 
and think about the economic growth and the new jobs that have 
been created in communities in every corner of the country.
    Today, the energy efficiency has grown dramatically 
accounting for 2.3 million jobs and making up nearly 70 percent 
of all clean energy jobs. Nearly half a million of these jobs 
can be found in the states represented by the members of this 
Committee alone.
    And we know we would not be here, where we are today, 
without the many key federal energy programs and policies, 
policies that you guys pioneered. But I'm here to tell you the 
opportunities ahead are even greater than our past 
accomplishments.
    This is particularly notable in the context of climate 
change. Energy efficiency is the fastest, cheapest and largest 
tool we have for reducing emissions. According to IEA, as 
Senator Manchin mentioned, energy efficiency will need to be 
more than 40 percent of the solution to meet the goals of the 
Paris Accord. Put another way, it's virtually impossible to 
achieve even modest carbon reduction goals without robust gains 
in energy efficiency.
    The good news is that energy efficiency policy solutions 
double as powerful economic policy. With efficiency we can 
tackle climate change while simultaneously strengthening the 
economy. And there are many actions that we would advocate that 
this Committee take to seize this opportunity.
    Most immediately, we have to protect the policies we have 
in place today like minimum efficiency standards, the 
Weatherization Assistance Program and critical R&D investments 
that drive efficiency throughout the economy. I'm convinced 
that EERE's leadership and professional staff have the 
expertise and the ability to do their job as Congress intended, 
but this Committee can play an important role in making sure 
their work is done on time, in compliance with the law and 
absent political interference.
    Perhaps the most obvious examples of this need for 
oversight concerns the 16 energy conservation standards that 
have missed statutory deadlines and the ill-advised proposal to 
roll back light bulb standards set to take effect in January. 
This Committee should exercise its oversight responsibility to 
help get these overdue standards back on track.
    We would also encourage the Committee to take up and pass 
bipartisan legislation to advance opportunities in energy 
efficiency across sectors. I've highlighted several specific 
bipartisan bills in my written testimony that would deliver 
savings and help lower emissions: the Portman-Shaheen Energy 
Efficiency bill which is undergoing updates right now and is 
likely to be introduced very soon; the All-of-the-Above Federal 
Building Energy Conservation Act which Senator Hoeven and 
Senator Manchin have sponsored; and the Weatherization 
Enhancement and Local Energy Efficiency Investment and 
Accountability Act introduced by Alliance Honorary Advisors, 
Senator Coons and Senator Collins.
    Some of these bills could also easily be included as part 
of an infrastructure package because infrastructure includes 
our utility grid. It includes buildings. It includes water and 
wastewater facilities, transit hubs, public buildings and many 
other structures. Being smart and forward thinking about 
infrastructure presents the opportunity to get it right, now, 
and then save consumers and taxpayers decades in energy costs.
    To close, I'd say again, that now is the time to double 
down on energy efficiency. It is a veritable energy bonanza, as 
my friend, Amory Lovins, from the great State of Colorado likes 
to say. But we're not moving fast enough, largely because we 
don't always see efficiency.
    Senator Murkowski, I think you mentioned part of that 
underestimating energy efficiency. But at a fearless pace, 
technology is unlocking new and even greater potential through 
smart meters, smart buildings, integrated design and connected 
devices. So while efficiency may be hard to see, the 
opportunity is clear.
    The Alliance looks forward to working with you to ensure we 
realize the full potential of energy efficiency, America's 
greatest energy resource.
    Thank you again for inviting me to testify. I'm happy to 
take any questions.
    [The prepared statement of Dr. Hartke follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Dr. Hartke.
    Mr. Grunau, welcome to the Committee.

  STATEMENT OF BRUNO C. GRUNAU, CHIEF PROGRAMS OFFICER, COLD 
                CLIMATE HOUSING RESEARCH CENTER

    Mr. Grunau. Good morning, thank you, and thank you, Senator 
Murkowski, for the opportunity to come up here and share our 
story with you and the rest of the Committee and these really 
talented folks here on this panel.
    Our mission at the Cold Climate Housing Research Center is 
to advance energy efficient, sustainable, durable and 
sustainable shelter throughout Alaska and across the 
circumpolar North. And the way we do that is through advancing 
applied research and innovation through demonstration.
    As Senator Murkowski mentioned before, one of our accolades 
is that we're able to work with communities, take a holistic 
approach of working with some of our communities across Alaska 
to design culturally appropriate and energy efficient homes 
that use 80 percent less energy than their neighbor next door 
at the same or less construction cost of the neighbor next 
door.
    We also have a 25,000 square foot research test facility. 
It's the farthest north LEED Platinum building in the world, 
and we're proud of that.
    We also work with communities across Alaska to help with 
climate change situations. The community of Newtok, for 
instance, is falling into the sea, so we're helping them 
rebuild, working with them to rebuild their community in 
Mertarvik and make sure they have good energy efficient homes.
    I know a lot of times when we look in the Lower 48, we talk 
about building advancements and, quite frankly, in Alaska, 
that's just a way of life for a lot of our builders. In a lot 
of ways, we're building houses today as we did 50 or even 100 
years ago and buildings do take up about 40 percent of our 
nation's energy. And that's just a huge untapped potential out 
there to lower energy demand.
    And as I heard Senator Manchin say before, energy 
efficiency really is the low-hanging fruit. In fact, it's the 
backbone really on which we can build our renewable energy 
infrastructure.
    The thing about energy efficiency is it doesn't quite have 
that shine that renewable energy has, you know? You put a solar 
collector on a roof, you're making a statement. People can see 
it and people can see your values, but energy efficiency, not 
quite so much.
    And again, you have two houses that look identical, one can 
pay two or three times the amount of energy that the other does 
and the only thing to show for that are energy bills.
    Demonstrating what's available really is the key. If you 
come in--and I invite everyone here to come to the research 
center--I'd love to give you a tour. We would give you a tour 
of ground source heat pumps that work in permafrost, our 
photovoltaic systems and what we know about how they work up in 
Alaska. A seasonal thermal storage energy system that we've 
got, and we can show you all those things.
    But if there are three things I'd want you to walk away 
with is that when you build your house, you want a good energy, 
a good building envelope that's the right amount of insulation 
of the right configurations. You want it nice and tight, and 
you want good ventilation. Those are the three most important 
things that achieve energy efficiency. And all of that combined 
doesn't just impact energy bills, it also impacts health. If 
you build the building right, then you're going to create a 
house that has less mold, better air quality and reduce costs, 
health costs, to the state.
    As a matter of fact, in rural Alaska we have some of the 
highest, the highest incidence of respiratory infection in the 
country. One hospital visit in rural Alaska due to unhealthy 
housing, by the way, is about $22,000. That's work that came 
out of Alaska Native Tribal Health Consortium here this year.
    And since we're on money, we can talk about economic 
impacts. In Alaska we had a ten-year program, it's called the 
Home Energy Rebate Program. It was a $242 million program using 
existing technology and it covered about 26,000-27,000 homes. 
But with that $242 million investment, it resulted in reduced 
energy costs of $261 million. It reduced the energy of those 
homes by 34 percent. It reduced greenhouse gases by 3.2 billion 
pounds of carbon dioxide. It stimulated 7,000 annual jobs and 
over $900 million in economic stimulus. It's almost $1 billion, 
and the state has about a $4 billion annual budget. It's huge.
    Other opportunities that we can increase energy efficiency 
is through LED lighting, as was mentioned earlier. We found 
that we estimated about $20 million of annual savings can be 
achieved by upgrading from linear fluorescents to LED lighting 
just in our public facilities in Alaska.
    But since we're here to talk about energy efficiency, I 
really wanted to underscore that part of the advancements of 
energy efficiency is getting the mechanisms out there to use 
what's available.
    But as far as what's ahead of us, there are two 
technologies I'd like to highlight. One is air source heat 
pumps. Air source heat pumps are changing right now. You can 
get air source heat pumps on the market that work to minus 15 
degrees Fahrenheit. It's incredible. We worked with Oak Ridge 
National Laboratory a couple years ago, two years ago, and 
demonstrated an air source heat pump that worked at minus 25 
degrees Fahrenheit. That's pretty impressive.
    I know in Kotzebue, a small rural community in Northwest 
Alaska, there's a demonstration project where we're 
incorporating air source heat pumps and it's calculated to, 
when you use the air source heat pumps in the shorter seasons, 
it's calculated to reduce the total energy cost by about 30 
percent. So that's a big deal.
    And then the last thing, really what we need in terms of 
advancing energy efficiency is to evaluate, research and 
demonstrate these new building technologies and building 
materials that are out here.
    I brought one example with me today. This is a vacuum 
insulated panel. It has an R value of R-60 per inch, R-60 per 
inch. Your 2x4 wall with fiberglass is about R-11. It's a game 
changer, quite frankly. With materials like this we just have 
to figure out, and I'm happy to pass this around, we've got to 
figure out ways to integrate this into our buildings. Some 
commercial uses are starting to use this, but we need to get 
these into our homes now.
    Quite frankly, I think that if we stay on this path it 
won't be long before we look back and we'll be appalled at how 
in 2019 we had used 40 percent of our energy on buildings.
    So anyway, I'm looking forward to the opportunity to talk 
with you all, and thanks for the opportunity to be here today.
    [The prepared statement of Mr. Grunau follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Bruno.
    I know that Senator Manchin has a question. He says, how do 
you keep it tight and ventilated, but we know that that has 
been one of our challenges and you all have really pioneered 
it.
    I am going to defer my question here to allow Senator 
Gardner to go first.
    Senator Gardner.
    Senator Gardner. Thank you, Madam Chairman, and thank you 
to the witnesses, again, for your time and testimony. I 
appreciate the ability to ask questions now so we can go off to 
another committee.
    Dr. Keller, as households and companies reap the benefits 
of innovations you talked about in your opening statement, 
particularly in distributed energy resources--rooftop solar, 
smart efficient devices--it increases the number of access 
points for cybersecurity concerns, as you talked about.
    Could you talk a little bit more about the collaborative 
efforts to conduct both the DER, Distributed Energy Resource, 
research and cybersecurity research that is being done at NREL 
or other national labs? Could you talk a little bit about that 
and just talk about how we ``bake in'' cybersecurity into our 
research and development so that when it is good to go, it is 
good to go security wise as well?
    Dr. Keller. Thank you, Senator.
    You bring up a very, very important topic, and I tell you 
this, when people ask me what keeps me up at night, this is 
exactly one of them. When you see how we are moving with our 
grid architecture, that there's all these changes, that we have 
a more distributed grid--a grid will go bidirectional. People--
you know, when you have solar panels you want to check what 
you're using, how much you produce, and so on. So suddenly 
you're recreating a lot of new vulnerabilities for our security 
and cyber elements which we did not have a couple years ago.
    And that's why we are reaching out. Historically, NREL 
probably was not known to be in the cyber world. But that's 
what we felt was a very, very important element to move into 
the space, partner with other national laboratories such as 
Sandia or Oak Ridge or Idaho to come from the distributed side 
and help how we can close this gap.
    I think the cybersecurity outlook is changing right now. We 
are pretty good to secure the grid as we have it right now. But 
the grid of the future will be very different, and that's where 
we need to also develop new cybersecurity measurements.
    I've been working on what you call autonomous grid systems. 
So the future of the grid will very likely be driven by machine 
learning or by artificial intelligence which will enable a lot 
of new control mechanisms for the grid. This said, it also will 
bring new threats to the grid and that's why we have to be 
ahead.
    And may I say this, when you work in cyber, the problem is 
you're on this journey but you will never reach your goal 
because it's constantly evolving. You always have to be ahead 
and that, in my view, will be, will keep the researchers here 
very, very busy, the scientists, for a long time to come.
    Senator Gardner. Very good, thank you and congratulations 
on the $100 million agreement with NETL and Exxon Mobil. I 
think this is an incredible opportunity. And thank you for the 
collaborative research and development effort, the approach for 
R&D that you have taken at NREL, our labs and other 
universities.
    What does this mean? I mean, how does this work and what 
does this do to DOE? Does it take it in a different direction? 
Does it continue to fulfill the mission? What does this 
agreement mean to you?
    Dr. Keller. So we are very excited about this agreement. We 
just had the official signing ceremony earlier today at DOE 
headquarters.
    This is where two or three parties are coming together 
which brings a lot of new ideas to this. I mean, when you look 
at our research and what Exxon Mobil is very, very good at is 
how you scale things into the market.
    So when you look into the new lower emission technologies, 
a lot of times universities and the schools like to do the work 
on the very small scales. And then the question is how do you 
take the small scales and how to scale it that they have an 
impact in our economy and the resulting industry?
    And this is what this agreement will do. That's also why we 
have this ten-year agreement that you can start at low tier 
levels with brand new ideas but then the agreement is to bring 
people from the national lab complexes. It's beyond even NREL 
and NETL, we are also reaching out to Idaho and to any other 
national laboratory that has great ideas. We're also going to 
reach out to academics with great ideas to bring them in and 
then work together in this--how can you take some of this early 
stage research and how can you scale it together with the 
engineers from Exxon and our scientists.
    So, our scientists, we're excited about this because 
suddenly you can have an industrial partner who knows exactly 
what is relevant, what we can do by bringing this together, 
working as a team to take this and scale ideas.
    Senator Gardner. Thank you.
    Dr. Hartke, thank you very much for the shout out of the 
Energy Savings Performance Contracting legislation. Senator 
Coons and I do plan to introduce that in early June. Obviously 
interested in the efficiency issues both from an economic and 
environmental perspective, the EIA has singled out energy 
efficiency as contributing more than 50 percent. I think this 
is an incredible statistic. The EIA has singled out energy 
efficiency as contributing more than 50 percent of our nation's 
reduction in carbon emissions over the past decade.
    So this is something that is not just a tool for people to 
save a little bit of money. We have actually reduced carbon 50 
percent because of energy efficiencies. And we can do a lot 
more than just what we are doing right now. And that number, 
that 50 percent reduction, is more than fuel switching and 
renewable energy generation combined. So that is a pretty 
powerful tool that we have been able to capture with a lot more 
work and potential.
    Could you talk a little bit--I guess I am out of time. So 
we will carry this conversation on at some point. I got excited 
here, sorry about that.
    And Dan, certainly thank you for the work you are doing on 
the Flat Irons campus as well.
    Thanks very much.
    The Chairman. Dr. Hartke, if you want to give a quick 
response to that? I mean, this is----
    Senator Gardner. I didn't get my question out, so----
    [Laughter.]
    The Chairman. Well, I know but, we kind of knew where you 
were headed, Senator Gardner.
    Dr. Hartke. Well, it is a tremendous statistic. And I think 
that, you know, federal buildings account--we pay $6 billion a 
year on utility bills for federal buildings alone.
    So federal buildings ought to be a leader. There's an 
amazing tool that you know all too well in energy service 
performance contracting (ESPC) that is an amazing deal for the 
American taxpayer. Doesn't cost them any money to do these 
energy improvements.
    Those energy improvements work. They save taxpayers money, 
and they make sure that we're leading on energy efficiency and 
other clean energy solutions which is exactly how it should be.
    In addition, there's other statistics that show, I think, 
for every $10 million invested through ESPCs, we're creating 
100 jobs. So all that investment that we're doing that doesn't 
cost the taxpayer any money, in fact, saves them money, is 
creating jobs.
    So, I would, you know, do agree that we're in whatever 
gear. If we can get into a higher gear on those types of 
solutions, that's exactly what we should be doing. I mean, it 
really is a tremendous solution.
    The Chairman. Thank you for that, Dr. Hartke.
    I do think we recognize that we have an extraordinary 
opportunity to lead with our federal buildings. I happen to 
think that we are lousy in this category.
    I know that we have done a good job with the lights, but I 
think when we can figure out how to get men's summer attire 
just a little bit loosened up then we won't require so much air 
conditioning.
    Senator Heinrich. I am with you.
    The Chairman. And the women can be a little more, I guess, 
we don't need space heaters under our desk in order to wear a 
summer dress.
    So know that this is my little mission. I have not made 
much headway with it but, by gosh, when you guys are wearing 
long sleeve shirts, undershirts, ties, socks and leather shoes 
and it is 90 degrees, it does not make sense. I am just saying.
    Senator Gardner. Madam Chair, unfortunately, the hot air in 
Congress is anthropogenic.
    [Laughter.]
    The Chairman. Okay, let's go to Senator Manchin.
    Senator Manchin. ----to Senator Heinrich, who has another 
commitment.
    Senator Heinrich. I will start by saying, sign me up for 
the no tie caucus. I am with you.
    I think, first, we should say that the cheapest energy 
around is conservation, right? The kilowatt-hour, the megawatt-
hour that you don't have to pay for is the cheapest energy out 
there.
    I want to go from that to what is next cheapest and this is 
a little chart I had on my desk this morning, so I grabbed it 
and I modified it with updated data and brought it over.
    [The chart referenced follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Heinrich. Basically, what it shows is the trend 
line of how PV renewables have gotten cheaper over time and 
where we are on a levelized basis between nuclear and then coal 
and then combined cycle natural gas and now, renewables dipping 
below that.
    So the challenge is not so much, at this point, the 
economics of decarbonizing our grid. It is how do we manage 
that grid to maximize its resilience to make sure it is 
reliable and to maximize penetration.
    I wanted to start by addressing something that Mr. Simmons 
brought up which is this idea of using our existing storage in 
hydro as more of a storage resource. In the past we really have 
not done that. We have managed it very differently. We need to 
think about how we use that resource to really balance the grid 
in contrast to how we have used it historically. I would just 
ask you, what are the policy changes that need to happen for 
that to change? And do we need to change our rate structures to 
support that kind of a change?
    Mr. Simmons. Thank you for that question.
    Last week I had the opportunity to attend the World 
Hydropower Congress, and much of the discussion there, much of 
the focus, was how can we use hydropower better? ``We,'' being 
the world. How can we use hydropower better to balance the grid 
of the future?
    And there was a lot of discussion around this. I don't know 
if we need, necessarily, new policies. However, what we need to 
understand and what people that run the grid need to understand 
are the value of the different types of generating resources.
    In the past a pumped hydro facility may run twice a day. 
Some of these facilities are now being called on 60 times a 
day. But even if I remember that wrong and it's only 30 times a 
day or only 10 times a day, that's still many times more than 
it has been in the past. So this is some important research 
that we are doing, both understanding how that changes the 
operation of maintenance of those sorts of plants.
    But also some of the other important research that we're 
doing is trying to understand value to the grid that hydro and 
other types of generating services provide.
    Senator Heinrich. Is either NREL or DOE, writ large, really 
diving deep at this point on how we can also bring to bear new 
tools like AI and machine learning to balance that grid on a 
moment-by-moment basis?
    Mr. Simmons. Without a doubt, and I'll definitely let 
Martin talk to that.
    Dr. Keller. So we're looking into this again. When you look 
into the future, we will have tens of millions of devices on 
our grid which you can control. All this will be power 
electronics. There was even a light bulb, but it will be power 
electronics.
    Senator Heinrich. I heard what you can do with 100 water 
heaters. Imagine what we could do with tens of millions of 
devices.
    Dr. Keller. Correct, correct.
    The problem is right now that we don't have the tool 
actually to use in these devices to control the grid. When you 
look and extrapolate this out, maybe controlling our grid will 
not work for so many devices. And that's why we engaged into 
this what we call ``autonomous grid.'' There's a researcher who 
would say, how could you bring some new algorithms, some 
machine learning tools into this that you can use actually all 
these devices to come up with the grid architecture and do the 
grid control mechanisms for the future? This is what we engage 
in right now.
    Senator Heinrich. I am going to run out of time quickly as 
well, but Dr. Keller, talk to us a little bit about 
perovskites. You mentioned them in your testimony. Where are 
they on the path to commercialization and why does it matter?
    Dr. Keller. So, perovskites is a very interesting molecule 
because if we can work out, I mean there's still some research 
topics we have to overcome, the biggest one is still stability. 
So perovskites are known that they are sensitive to moisture so 
they're losing their effectiveness over time. If you, assuming 
we can overcome this issue, suddenly it would open a completely 
new way of manufacturing solar panels in the future.
    So we always talk about this, they can use perovskites 
almost like you have solar panels. You would make them like you 
make newspaper. It's an ink. You can spread them out. They're a 
very thin film. And this can open up solar to everything. So we 
could have solar in every device, in also, especially for our 
defense. It's very important for fort bases. It's very 
lightweight.
    Senator Heinrich. Clothing, backpacks, tents.
    Dr. Keller. Correct, everything. It's completely flexible.
    So this can be a step function revolution, how we make 
solar panels in the future.
    Senator Heinrich. Thank you.
    The Chairman. Thank you, Senator.
    Mr. Grunau, and this will also be to you, Dr. Hartke, and 
pretty much anybody here on the panel. We had good discussion 
today in highlighting the reduction in energy cost to families 
as a result of gains that we are making in efficiencies.
    When we think about those who are most impacted by the 
higher cost of energy, it really is the most vulnerable in our 
society, whether it is elders or the poor. And when we have 
some important federal programs, the Weatherization Program has 
been mentioned, we see great benefit of that in Alaska. We have 
state energy programs. Those programs that can help maximize 
efficiency standards.
    But if you had your magic wand here in terms of the area 
that you could make the biggest impact on effectiveness from 
the Federal Government's perspective in helping low income 
households reduce energy costs, where is it?
    You know, in a cold place like Alaska, it seems to me, the 
easy place is the weatherization and the insulation so that you 
don't have to spend so much more. Maybe in the south, it is you 
don't, again, these efficiencies allow you to live more 
comfortably, not die of heat stroke in hot places. Where is the 
most exciting potential that you think we have a role to play 
from the Federal Government's perspective that can make a 
difference for those that are more energy vulnerable?
    Bruno, do you want to start?
    Mr. Grunau. I'm happy to go first. That's a great question. 
I really appreciate that.
    You mentioned the Weatherization Program, and it is 
absolutely a great example of what does work. It hits the low-
income bracket because I think the average income for that 
program is like $28,000 a year. So that really does work out 
well.
    There's a gap of folks who, kind of, need the help who 
can't afford, say, that home energy rebate program we've got.
    The Chairman. Right.
    Mr. Grunau. There are folks who can afford that. There are 
some who go into that program and they can't afford the whole 
retrofit process. And so, those are people that we kind of need 
to help, sort of, support.
    I want to just build on the backs of some of the programs 
that EERE and the Office of Indian Energy have put out that's 
actually helping rural Alaska build capacity in a lot of rural 
communities there.
    So what I mean by that is, in fact, there are people in 
town right now, this week, presenting on the outcomes of some 
of these projects where we go into the villages and we do 
energy audits for tribal buildings. And then that gives them an 
energy plan to help move forward. I think that's a big step 
forward.
    It's kind of like, you know, in your own home you know a 
couple things you could do to make your house more efficient, 
but really you need pros to come out there. And so, that's 
where, I think, that's a magic wand thing I would like to say 
is support continued programs that help that endeavor.
    I'd also say just education, education of the, not just 
homeowners, but homebuilders. If we can get some of these 
technologies, and I'm talking just basic building methods that 
are energy efficient, into the hands of our builders and maybe 
through codes. I mean, that's a great one because, of course, 
Alaska doesn't have statewide codes.
    The Chairman. Let me ask about that one, and I will open 
this up to everybody because I think it was you, Dr. Hartke 
that said, we don't always see the benefits of efficiency but 
it is clear that the opportunity is there. I thought that that 
was well put. And it goes back to education.
    So much of this is people just don't know how they can make 
a difference or they say, me changing out my light bulbs to 
LED, that is not going to make a difference. I am not going to 
be able to change the world or save the world today.
    So in addition to the magic wand, because I agree, 
education has to be a significant component of this. The 
Alliance to Save Energy, I mean, that is kind of what you do, 
but we are not doing it enough if we are still seeing 40 
percent of the power generation that is going toward our 
buildings. What do we need more there?
    Dr. Hartke. I'll just chime in quickly, a couple points.
    One, and this speaks in part to your question which is a 
big, big question. Since the end of 2017 we have not had 
incentives for energy efficiency. They expired at the end of, 
you know, now almost a year and a half ago. And making sure 
that we are continuing to drive behavior toward high-
performance products and homes makes a difference. I think it's 
a market signal that reaches everybody.
    On the flip side, how do you have a policy, a Federal 
Government role that does reach everybody? I don't think 
there's any better example than standards. Standards has been 
an engine for innovation and a program, I mean, one of the 
greatest energy efficiency polices ever completed, it's now 
saving us over $2 trillion. And that reaches everybody.
    Because the problem, I think, with your question is how do 
you construct a policy that does get to the folks who would 
benefit most from those energy savings? And that's tough to do 
in part because there are a variety of structural barriers and 
there's split incentive barriers.
    So it's hard if you're a tenant or you're a renter, you 
might want to have more energy efficiency and benefit from 
those energy savings, but they would actually go to the 
landlord. So how do you overcome those barriers is a big deal.
    And then last, I would just underscore the role of 
education. It's huge.
    I just saw this full spread piece in the Washington Post 
that was talking about all these home retrofits and retrofits 
that you could do. You could do your bathroom, your kitchen, 
all these other things for a $300 blower door test. You could 
map out a whole slew of energy efficiency improvements that 
would save you money. So education still is a big hurdle.
    And then last but not least, the Weatherization Program. 
It's a hugely successful government program. It reaches the 
most vulnerable. It saves almost, on average, $300 to those 
families a year. Those savings are cumulative.
    So there's ways to either amplify that program and also 
ways to modernize that program so it could go deeper in terms 
of those energy savings. I think that would be tremendous as 
well.
    The Chairman. Okay.
    I am well over my time, but I see Mr. Conant is just 
itching to jump in here. So, if I may?
    Mr. Conant. Yup, thank you.
    From the solar side, one of the biggest challenges we run 
up against in our work with low income West Virginians is that 
the biggest solar incentive in the country is the investment 
tax credit. Unfortunately, that is based on someone's income.
    The Chairman. Right.
    Mr. Conant. So for anyone that is at the average West 
Virginian family income or below, they're not able to take that 
tax credit in one year.
    The Chairman. Yes.
    Mr. Conant. It would take multiple years of dragging it 
out.
    And so, particularly, when we get calls from retirees or 
the like, it's every other day we're getting a call from 
someone who lives in manufactured housing and has a $600 
monthly electric bill, and we start talking with them. We just 
can't help them because this tax incentive does absolutely no 
good for them. Same thing on the non-profit side.
    So if I had my magic wand, I'd really focus in on how do we 
expand the eligibility of that tax credit, whether it's through 
making it refundable or some other mechanism to make sure that 
we're not only sending our incentive dollars toward higher 
income folks.
    The Chairman. I appreciate you bringing that up. I think I 
want to talk about that a little bit more on the second round.
    Senator Manchin.
    Senator Manchin. Thank you, Madam Chairman.
    I think to both Dans here, Mr. Simmons and Mr. Conant in 
West Virginia, when I was governor, we did an energy portfolio 
and with that we had net metering back. Since then, the 
legislature and the current governor have repealed or 
undermined those policies, making it very difficult on some of 
the things we were trying to accomplish.
    At the federal level you are talking about the tax 
incentives and things that go with this. So for each of you, 
where do you see the best mix of policies? The best mix 
because, in our state being a heavy extraction state, there is 
a lot of things that are preventing us from moving forward. And 
I understand it, but you know, the market is the market. The 
market has got to move, and we are impeding that.
    Where do you think the level for the deployment of 
renewable energy technologies is? And do you all, any of you 
all, see renewables ever being baseload? So whichever Dan wants 
to start first?
    Dan? West Virginia Dan.
    Mr. Conant. One point of correction. Net metering was not 
repealed by the state. There was----
    Senator Manchin. They tried to and they didn't. But let me 
tell you right now----
    Mr. Conant. There was an attempt.
    Senator Manchin. ----the Public Service Commission is 
considering changes to states. I mean, as you know, they are 
right now considering those changes.
    Mr. Conant. Yeah. The current debate in the Public Service 
Commission is regarding the technology behind bidirectional 
meters----
    Senator Manchin. Yes.
    Mr. Conant. ----and whether to require that.
    Senator Manchin. Well, I think what they were saying, they 
always come back at me basically saying, you allow net metering 
back, who is going to pay the bill?
    It is going to raise everybody else's bill. It was only at 
three percent, so we knew it wouldn't affect anybody's bill. We 
wanted to see if it would work. And we've had to fight just to 
keep it in there. And I am hoping you are able to. But I know 
they are making attempts at changing it. But anyway----
    Mr. Conant. I think one of the most powerful things we have 
going for us right now in terms of defending net metering at 
the state level is that we are expanding this beyond the well-
to-do. It's not just a country club thing. It's a homeless 
shelter thing. It's a----
    Senator Manchin. Well, they start speaking, thank God, that 
is what kept it from being repealed.
    Mr. Conant. Okay.
    Senator Manchin. The policy, basically, it is affecting you 
all and you are just talking briefly about that, and I know 
that Senator Murkowski wanted to talk more about that too.
    But the technology is renewable.
    Mr. Conant. As far as federal policies that can help us, 
even in states that have policy headwinds, I think so much of 
it comes back to the structures that are put in place, either 
for tax credits or also for federal loan and grant programs.
    Senator Manchin. Yes.
    Mr. Conant. So, for instance, with USDA with the Rural 
Energy for America program, great program, covers, it can 
provide grants for up to 25 percent of the system cost for a 
business. But the limitations they put on there are extremely 
disfavorable against any project in a state that doesn't have 
power purchase agreements. And there are 25 states in the 
country that don't allow power purchase agreements that don't 
have a competitive marketplace. So through the restrictions 
that the USDA program development staff have put into place, 
they've really left out a large swath of the country.
    Same thing with the IRS in how they've interpreted the 
investment tax credit rules. They've put lots of restrictions, 
once again, around requiring PPAs which just don't work in West 
Virginia. They don't work in Kentucky.
    So I'd love to see just opening, the Federal Government 
opening up eligibility around those programs.
    Senator Manchin. Well, I would like for all of us, I mean, 
especially those of us in the Senate here, basically in the 
next round of extenders, which is tax credits--I have always 
said in states like ours, who are very heavy extraction states, 
that as we transfer and the market transfers, those credits 
should be given under the condition that a majority of that 
investment, if you are going to take the credits, be used in 
states that have lost the energy jobs.
    I mean, I have a coal miner that can build you the best 
solar power and the best wind power you have ever seen, if they 
had a chance. But the dollars, if the dollars don't force them 
to go there, I think, Mr. Simmons, it falls into your category 
there, if DOE would support something such as that, trying to 
make those dollars move into areas that we had a transition in 
energy market.
    Mr. Simmons. Sure, I mean, Under Secretary Menezes was out 
in Appalachia last week talking about a new kind of ethane 
petrochemical hub that has potential there.
    On the issue on policy for these technologies we're talking 
about today with renewable technologies, I haven't been focused 
too much on policy, but instead, really on technology, to drive 
down the cost, to continue driving down that cost curve and 
then integrating these technologies together so that you can 
actually get calls from, so that Dan can get calls from people 
living in manufactured housing who are thinking about solar 
panels. So that actually, kind of, makes sense for them.
    So that's really what we're focused on is by having a low 
enough cost that really the policies don't matter as much. And 
that's--plus it makes my job easier to focus on technology.
    Senator Manchin. Thank you, Madam Chairman.
    The Chairman. Senator Hirono.
    Senator Hirono. Thank you, Madam Chair.
    I recently visited Vietnam with Chair Murkowski and other 
Senators, and we heard about that country's rapidly growing 
demand for energy and worsening air quality.
    I am glad that NREL--this is a question for Dr. Keller--
that NREL has worked with the University of Hawaii's Hawaii 
Natural Energy Institute, to help Vietnam develop plans and 
standards to use more renewable power sources.
    I expect you have followed the efforts of China to build 
coal plants in neighboring countries as part of its multi-
billion-dollar Belt and Road infrastructure initiative which 
will worsen the impacts of climate change for people in the 
United States and everywhere and elsewhere in the world.
    What more could NREL and Congress do to help countries in 
Asia direct their energy developments toward renewable, low-
carbon sources?
    Dr. Keller.
    Dr. Keller. Senator, thank you.
    You bring up a very, very good topic because when you look 
at this historically, when you look at NREL, we are working 
with about 90 different countries, all over the place. And it 
always depends what country you're dealing with that the level 
of help is very different when you go into it. Some of the 
countries don't even have wind maps or solar maps. So where we 
can help them and show them how you can create some of the very 
basic maps to understanding what resources you have.
    And then it all goes to the path to see how could they 
bring some of this technology in. Some of the countries don't 
have a grid system, so microgrid, very simple from our 
perspective. Solar panels with some small batteries will bring 
electricity to some of these houses.
    So I would say what can we do to further steps into this 
direction, I think it's very important that we, as in our 
opinion, still as, we, as United States, as the world leader in 
some of these innovations, I think we should continue to work 
with some of these countries and show them a path how they 
could move this forward.
    And if you go into some of those countries where their 
people want to have basic electricity, and I think they have a 
right to get this basic electricity, I would argue, building a 
full-scale grid might not always be the best solution. But so, 
if other countries come in and just selling their technology 
and we will not be present, then we're undermining our world 
leading capacity in this area.
    Senator Hirono. So you mentioned 90 different countries. Is 
NREL in Vietnam?
    Dr. Keller. I have to check if we are in Vietnam, but 
again, I said, we are in many different countries. I can get 
back to you and let you know, but I don't know if we are in 
Vietnam.
    Senator Hirono. This is for Secretary Simmons.
    This year's budget for the Energy Efficiency and Renewable 
Energy Office, EERE, includes $353 million that Congress gave 
this entity, this office, last year but that DOE had not yet 
awarded at the time the budget was being put together late last 
year. The office, as Congress intended, has continued to 
allocate the funds to support energy efficiency and renewable 
energy research and development.
    How much of the $353 million that Congress appropriated for 
this office now is obligated to fulfill its mission?
    Mr. Simmons. I would have to get you that exact dollars.
    One key thing is that that money was in the proposed 
request. There are, however, no restrictions that have been 
placed on anyone in the office not to obligate the money that 
was in that proposed rescission. I just want to be very clear 
that we are working hard to obligate all of the dollars 
previously appropriated.
    Senator Hirono. Do you have any sense--the reason the 
question is even brought up is that there is a sense that, 
maybe, that that much of that money has not even been obligated 
and may fall by the wayside.
    So do you have any sense of how much of it--are we talking 
about the vast majority of that money already being obligated 
for its mission?
    Mr. Simmons. Well.
    Senator Hirono. If you don't have a sense, that is okay, 
get back to us, please.
    Mr. Simmons. I don't and I will happily respond, yes.
    Senator Hirono. Another question for Dr. Keller.
    Hawaii is on the cutting edge of incorporating renewable 
power and energy storage. In April, I visited a solar and 
storage facility on Kauai Island which is the largest combined 
solar and storage facility in the world.
    Did you know that? Of course, you did. Okay.
    And there is a Kauai Island utility cooperative which is 
the only co-op, utility co-op, in Hawaii. It enables the co-op 
in Kauai to generate 50 percent of the Island's power from 
renewable sources. A similar project is under development for 
the Pacific Missile Range Facility on Kauai which is a military 
DoD facility and the company has developed a project, AES, 
distributed energy, was able to test a prototype of the project 
at the National Renewable Energy Laboratory in Colorado.
    What is NREL doing to solve the challenge of bringing large 
amounts of renewable power and storage on to the power grid?
    Dr. Keller. So again, as you mentioned, we have this 
wonderful collaboration with organizations in Hawaii, where 
ease of the energy systems and the gracious facility helped 
Hawaii to, hey, you can really expand the amount of solar and 
the grid still is working well.
    You could have brought up the big issue right now, in my 
opinion, for Hawaii, but for all the many other areas how do 
you then include storage to solar?
    Right now, there is, the battery cost is dropping very 
quickly. I personally am not exactly convinced that lithium 
batteries will be the long-term future for large-scale storage 
on the grid. I think we will need the next generation of 
storage technologies.
    We are working and again, also funded by EERE, what could 
be the next chemistry, will we move to more flow cell 
batteries, will it be different chemistry?
    So there is a lot of research going on in this area to 
decrease the cost of storage because as soon as you will 
decrease this and then combine this with renewables, you open 
up a whole new field to go even to higher penetration.
    Senator Hirono. You know, because you need quite a lot of 
land, in my view, to have all that storage there. I know this 
storage facility on Kauai is lithium, right? So we need to move 
to improve.
    Dr. Keller. So, Hawaii is a very special case because for 
most of the, where you see an increase in renewables, I would 
argue that probably land is not the most stumbling factor in 
respect to storage.
    But the cost of storage is the problem, and how do you 
scale it? And so, this is where we need more research and 
innovation.
    Senator Hirono. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Hirono.
    Senator King.
    Senator King. Thank you, Madam Chairman.
    As I was jotting my questions down, I realized that every 
one of them, just about, involved perverse incentives. I think 
one of the problems in this whole area is that our whole 
structure of how we pay for and obtain energy was created 100 
years ago and the incentives go in the wrong direction.
    The incentive is on the utility to build things. That is 
how they get paid. It is a rate of return. The more capital 
that you invest, the higher your rate of return for your 
shareholders. So we need to be thinking about how to maintain 
those businesses and a reasonable return for their investors, 
but at the same time, change the incentive so that there is an 
incentive to do renewables.
    Here is an example. The payback on weatherization is 
enormous, I mean, particularly in northern climate states. And 
Mr. Grunau, here is an idea. In my experience, one of the 
barriers to weatherization is the cost, the capital cost, to 
the homeowner. And even though the return may be 100 percent or 
40 percent or some very high number, they don't have the cash 
to make that investment.
    I have heard of cases where the utilities themselves become 
the bank and lend the money to the homeowner to do the 
retrofit, and it is paid back through the utility bill. It 
relieves this whole financing question in its, sort of, neat 
way. Do you have some thoughts about that or how else can we 
incent these kinds of projects?
    Mr. Grunau. Well, for one, I think that's a great idea. We 
had our previous Governor of Alaska, Governor Bill Walker, sign 
an on-bill financing technique like you're talking about. It 
hasn't yet been set up, but what people need is a mechanism to 
be able to afford these things, right, if they're going to 
afford it themselves? I'm just going to say, yeah, that's a 
great idea.
    You know, another thing too is if we could--people don't 
know, people just don't know what they need to do to make their 
house more energy efficient or whatever. So, and we talked, and 
it goes back to the education piece.
    Senator King. Well, let me make a suggestion there.
    Mr. Grunau. Sure.
    Senator King. We now have enormous capacity to process and 
utilize data cheaply in a house. The Prius effect, if you know 
what your house is using for energy and what different 
decisions you make and you can see it, the theory is that Prius 
drivers get about 10 percent additional mileage just because 
they can see what is happening on that little screen.
    If if you hear about me hitting an abutment, it is because 
I was watching the screen and not the road.
    [Laughter.]
    But this would be, you know, a simple device, like a 
thermostat, only it would be data. Here is what you are using. 
Here is what you are using for heat. Here is what you are using 
for electricity. I commend that to you.
    Another problem with incentives is the utility opposition 
to distributed energy, because if you put solar panels on your 
roof and don't use as much energy then the utility loses 
revenue. We have to figure out how to change those incentives.
    Another one that we have not talked about today, I don't 
think, in many places now the cost of transmission and 
distribution exceeds the cost of the energy. And that is a 
significant cost driver in the whole energy picture.
    Again, but the incentive on the utilities, generally, is to 
build more transmission because that is how you--and they are 
not bad people, they are just doing what the market tells them 
to do.
    But we need more incentives for a more efficient use of the 
grid. Time-of-day pricing, so that you use power when it is 
cheap at night. You can flow more kilowatt-hours, for example, 
to charge a car which will lower the cost of distribution and 
transmission because you have more kilowatt-hours upon which to 
use that fixed base of the cost of the transmission. They don't 
have to build any new wires in order to do that.
    So, Mr. Simmons, is that something that you guys are 
looking at? I mean, the grid is one of the most inefficient 
animals on earth. It is like a church built for Christmas and 
Easter and all the pews are empty in the middle of April.
    Do you see what I mean? We built this capacity for the 
hottest day in August, and it has to be there, but most other 
days, and particularly in the middle of the night in the 
winter, you don't need all that capacity. So evening out the 
utilization of the grid would be a much more efficient use of 
that fixed cost asset.
    Mr. Simmons. And this is also one of the things that I'm 
talking about when I talk about greater flexibility in the grid 
overall. As in, one of the ways to deal with flexible 
generation is to have more flexible consumption. As in, for 
buildings to be able to respond to, you know, to increases or, 
really, to respond to what the prices are on the grid.
    Senator King. The market signal, yes.
    Mr. Simmons. And buildings need to have better 
communication technologies. It's also very helpful for those 
buildings to be more energy efficient overall so that the 
buildings are seen as a resource for the grid. But this is a 
real opportunity.
    Senator King. And electric cars might also be the same. I 
mean, it is a distributed storage capacity.
    Mr. Simmons. Exactly. Over 70 percent of electricity is 
consumed in buildings and, at times of peak demand it's over 80 
percent.
    So there is a real opportunity, but we need better 
communication technologies as well as insulation sensors. And 
we are, I mean, that is a large percentage of the work that our 
Building Technology Office is currently doing.
    Senator King. Just two other quick suggestions.
    Dr. Keller, enormous potential in offshore wind. Gigantic 
potential, higher capacity factor, higher efficiencies, fewer 
environmental questions. That's got to be in our thoughts. I 
mean, on both coasts, we happen to be a country that has a lot 
of demand on our coasts.
    And, of course, storage. Storage is the whole deal in terms 
of integration of renewables and I agree with you, I don't 
necessarily think lithium batteries are a long-term answer. But 
if we can crack economic storage, then solar, then there is no 
barrier to solar and wind.
    And hydro, as Senator Heinrich said, can be used. If you 
have storage in hydro, that could be the battery. That is what 
Norway and Denmark are doing right now is swapping power back 
and forth. Wind in Denmark, stored hydro in Norway. So I hope 
that is high on your agenda.
    Dr. Keller. Senator King, I couldn't agree more with you, 
absolutely. And let me just throw something in there, how you 
described the grid, you made the perfect case for a lot of 
utilities looking into their business plans for the future.
    So there's a lot of changes coming along. Very similar how 
you describe that there's a lot of new business opportunities 
just with how Dan described----
    Senator King. We have to provide them with an incentive to 
chase those instead of opposing them.
    Dr. Keller. Yeah, I think the interesting thing is, I don't 
know if it's a necessary incentive or if it's the way we 
structure some of our oversights on the grid. I think this will 
change over the next years, in my opinion.
    Senator King. Thank you.
    Thank you, Madam Chair. Sorry I ran over.
    The Chairman. No, no, thank you. It is good conversation.
    Senator Manchin, you wanted to do a wrap-up comment here.
    Senator Manchin. I am just going to wrap up with a comment, 
but I want to thank all of you. It has been extremely 
enlightening for us and very hopeful.
    Both of us, myself and the Chairman here, are both coming 
from extraction states of Alaska and West Virginia. People have 
an impression that we don't want to move things forward or 
climate change is not real. On the contrary, it is real and we 
know it is real and we are seeing effects in all of our 
states--in West Virginia with horrific floodings that we have 
seen, disproportionate levels, and what you are seeing is 
melting of ice and rising sea levels.
    So all these things we are talking about, but there are 
some people today and in discussions you are seeing where they 
want to take positions of eliminating certain sources.
    We are more for innovation and not picking winners and 
losers in the market, but not putting impediments if winners 
and losers don't move forward in the market. And in some of our 
states, we have them as impediments. And also the Federal 
Government has not recognized that there is support that is 
needed if you want to have public buy-in, that you have to have 
a plan going forward. You cannot leave certain areas of this 
country behind.
    The people have done the extraction, have mined the coal or 
did the drilling for the oil and the natural gas. As markets 
change, they have to have opportunities to still survive, and 
that has been so shortsighted.
    I would hope that from the Department of Energy leading the 
charge here and basically giving input back into the White 
House, if you will, the Executive Branch, understanding how we 
can do this in a more balanced way.
    But us, through our tax incentives and our extenders, 
picking winners and losers has not worked because the market is 
what the market is going to be and so people demand. And we are 
going to make sure we are providing those opportunities.
    Thank you all, and we just really appreciate this exchange 
and I hope that we do more of it.
    Thank you.
    The Chairman. Thank you, Senator Manchin.
    I had one more question and you just keyed that up very 
well, because we have talked a lot about those policies that 
will enhance greater efficiencies, greater integration of 
renewals. When I asked if there were certain things the Federal 
Government can do from a policy perspective, we talked about 
R&D, we talked about weatherization. There was mention of 
standards.
    There really has not been much discussion about those 
policies that relate to tax incentives, those that get the 
investors involved or help move things around.
    There is a tax extenders package that is under 
consideration now. I don't happen to sit on that committee, but 
some of those in the media are always asking me questions about 
well, what do you think about tax extenders and solar and wind? 
We have the ITC in the residential solar marketplace that is 
going to disappear completely in 2022.
    Let's have a quick little discussion here from your 
perspective.
    I mention in my opening statement that so many of these 
renewable technologies are really standing on their own now. I 
mentioned the contracts underway for solar in this country and 
what that means.
    Are we beyond that time when wind and solar that have 
enjoyed the benefits of these tax credits for these many years, 
no longer need them? Remember, we had a deal, we were phasing 
things out, but now there is a lot of discussion about, well, 
we didn't really mean that phaseout.
    I am curious to know from your perspective and we have the 
government side, we have the trade association side. And we 
have those that are kind of making it happen on the ground. 
What happens if these tax incentives go away, phase out? Do we 
need more?
    I really appreciate what you have mentioned, Mr. Conant, 
about the impact to the non-profits, the limitations there, the 
limitations that we have when you cannot avail yourself of 
these tax credits because of your income.
    So we have about five minutes here. Let's talk about this 
role that the Federal Government plays, good, bad or otherwise. 
And this is a jump all for you all. Mr. Hartke.
    Dr. Hartke. Well, I'll jump in first.
    I think these tax incentives are invaluable. And I think, 
in the context----
    The Chairman. Well, they have been invaluable. The question 
for us as policymakers is how long do you extend them? How long 
do you give them that advantage?
    Dr. Hartke. Right.
    The Chairman. To use Senator Manchin's term, picking the 
winners and losers.
    Dr. Hartke. Exactly, no, exactly.
    The Chairman. I didn't mean to cut you off there.
    Dr. Hartke. No, I was just about to get into that exact 
point because you're right, when has the market caught up?
    And I think that when, at least on the energy efficiency 
side, when those incentives were first designed and created, 
we've seen, thanks to our good friends down at the other side 
of the dais here, some tremendous innovation.
    So the question is in the context of the threat of climate 
change, which means that we need to move a lot faster. How do 
we get the best technologies available out into the market? And 
I think that there's, that's a tax incentive conversation and 
it's an innovation question.
    We haven't talked much about the Administration and their, 
kind of, laser beam focus on early stage R&D. In my day it was 
RDD&D because demonstration and deployment were just as 
valuable. And as, on the tax incentive side, we know that that 
will increase deployment, that will increase adoption and 
therefore, that will bring down prices and make sure that these 
best available technologies are reaching more people. That, to 
me, is the government role and why they should intervene.
    We know from the McKinsey report of 2009 that best 
available technologies often do sit on the shelf. They don't 
get out. They don't commercialize as easy as we think because 
of all these various market barriers, particularly in energy 
efficiency.
    So tax incentives make a big, big difference. There's a DOE 
analysis that shows just on the 25-C home products tax 
incentive, again, it's expired, but if that were extended for 
10 years it would save consumers, it would save these consumers 
$52 billion. And it would get, again, these best technologies 
out in the market in a time that we need the best available, as 
fast as possible.
    The Chairman. Other comments?
    Mr. Conant.
    Mr. Conant. I would add that we're seeing state-by-state, 
utility-by-utility, the price of solar and wind come down and 
down and get more competitive with fossil fuels.
    However, that is on a state-by-state, utility-by-utility 
basis, where we saw it first in Hawaii and Massachusetts and 
California. But that doesn't mean that it has completely 
reached the Indianas and West Virginias of the world.
    Phasing out the ITC and the PTC at the current, well, I 
can't really speak to the PTC, but as far as the ITC goes, 
phasing it out according to the current schedule would leave us 
with regional disparities that, just as far as where solar will 
make the most sense against the, within the current utility 
structure or public service commission structures. So I would 
be in favor of extending just to give us a little more time to 
make sure that solar is reaching everyone across the country 
and not just the coast.
    The Chairman. Other comments?
    Mr. Simmons, you are framing something there.
    Mr. Simmons. It is a difficult--I do not know if the 
Administration has a position on the issue of the ITC and PTC, 
so that is, I don't want to touch that part.
    These, the ITC and the PTC, definitely help the deployment 
of the resources that utilize them. I talked to the head of EDF 
Renewables last week who was, you know, wondering what is going 
to happen with the PTC for wind since they're one of the 
largest wind developers or wind owners in the United States and 
it would lead, in his opinion, to a reduction of wind 
deployment.
    And but, the question that you ask, I think, is a very 
important question is when do we have that, when do we have a 
level playing field? And that one is one that I can't 
necessarily answer.
    It's one where, at the Department of Energy, well in my 
office, what we're really focused on, you know, we aren't 
focused on beating up on fossil fuels. We're focused on driving 
down the cost of renewables and then letting the market take it 
from there. And so, we have, the Office of Energy Efficiency 
and Renewable Energy, I think, with the help of national labs 
and others, have had tremendous progress in that area in recent 
years.
    Senator King. Madam Chair, could I make a contribution on 
this question?
    The Chairman. Absolutely and, before I yield to you, I just 
want to go back to the point that you made, Mr. Simmons, in 
your testimony several times. You talked about the area that we 
are limiting our self is in the integration. If we have the 
incentives that are there to build it, okay, that is fine, well 
and good, but then how do you get that integrated into the 
broader market?
    Senator King.
    Senator King. I think it is important in having this 
discussion to realize that it is not a level playing field and 
that we are talking about incentives that have been added 
relatively recently for wind and solar, but there are also 
embedded in the tax code, incentives for oil and gas----
    The Chairman. Other energy----
    Senator King. ----and extraction going back 100 years, so 
if we want to, I have always said, yes, let's level the playing 
field, make it level. Let everybody compete.
    But if you have tax incentives on one side and you take 
away on the other side, that is not a level playing field. So 
you are asking the right question, but in analyzing it, we 
really need data on the economic impact of the things like the 
oil depletion allowance and other embedded provisions in the 
tax code that have been there forever and are not as, sort of, 
obvious, as things like the PTC that are of fairly recent 
origin.
    Thank you.
    The Chairman. Fortunately, we are not the Finance Committee 
so that we don't, we are not the committee----
    Senator King. Through some oversight.
    [Laughter.]
    The Chairman. But it is part of the discussion because we 
can focus on the great technologies that are out there, what we 
are doing within R&D. But again, part of what we are trying to 
do is get this out there on the ground and how does our 
conversation then knit together with what Finance and the other 
committees are doing as we really try to gain the advantages 
that these efficiencies can deliver to us.
    I do think that this is an area where we either fail to 
understand and appreciate or to see the benefits that come from 
efficiency. We think that it is not enough to really make a 
difference, and yet this is where the United States really is 
shining.
    I was interested in listening to Senator Hirono's question 
coming from our trip to Vietnam there and the discussion that 
was had there about what the United States has done to so 
dramatically reduce our energy consumption driven by 
efficiencies and what more we can do in leading by example with 
that. Again, great opportunities are clearly out there.
    I do think that we are wholly deficient when it comes to 
the education piece of this. It has been a long time since I 
was a den mother in a scout troop, but at that time that was 
the only place I ever saw a real focused effort in something 
with our kids, focused on conservation. You could get your 
conservation merit badge. And I think we are probably doing a 
little bit better now. But our kids are probably more aware of 
what can be done to conserve and to be more efficient than even 
we are. And so, how we educate all of us and then share this 
education beyond just the United States here, this is something 
where I think we have some opportunities, but we have not done 
a very good job in that area. So we will be working on that. I 
am going to be working on the temperature.
    I want to thank you all for your comments here today. I 
think you have given the Committee some good food for thought.
    Mr. Conant, I just really appreciate hearing what you have 
done, a small group of probably young people who want to make a 
difference and kind of, opening some eyes about what the 
possibilities are, not waiting for the government, either the 
federal or the state, to help you out, but figuring out how to 
do it on your own and really setting that model.
    I want to acknowledge the work of the Cold Climate Housing 
Research Center because what you do up there demonstrates the 
realm of the possible and for all of my visitors that come to 
Alaska, it is almost an obligatory stop on the tour when you 
are in Fairbanks to see what is going on there. But knowing the 
difference that we are making to families, working in 
conjunction with our national labs.
    And I appreciate the role that the labs play, and I would 
hope that we can be doing more pairing with our national labs 
with entities just like Cold Climate Housing Research Center 
and taking the genius that is on the ground and utilizing the 
genius of the men and women in our national labs and working 
with DOE I think we have a great opportunity.
    Dr. Keller, I don't know if you got over to the Cold 
Climate Housing Research Center when you were in Fairbanks, but 
if you haven't, you should talk to some of your other lab 
directors that were there. It was a pretty cool thing.
    Dan, I think you have been there, haven't you?
    Mr. Simmons. I have not yet, unfortunately.
    The Chairman. We can make arrangements for that. We will--
--
    [Laughter.]
    Senator King. Madam Chair, I hope that the Center will 
share what they are learning because we have a very old housing 
stock in Maine, a very tough northern climate. So, to the 
extent you are learning projects, what works, best practices. 
We do a lot in weatherization, but there are always things to 
be learned and if you have ideas that can be passed along, we 
would love to have them.
    The Chairman. I am just going to talk out loud here about 
an idea, but since you and I are the co-chairs of the Arctic 
Caucus, it might be a good brown bag lunch to have a 
presentation on housing in colder places--it does not 
necessarily need to be Arctic. I mean, right now, in Colorado, 
it is colder than it is back home. But just to focus on that 
because it is not only what Cold Climate Housing is doing but 
we have other research from other Arctic countries that, I 
think, would be very, very helpful in focusing on some of the 
efficiencies and the innovation, if you would be up for that?
    Senator King. I'm in.
    The Chairman. Okay.
    Mr. Grunau. We're in, absolutely.
    The Chairman. Alright, we have a lunch date. There we go.
    Alright, gentlemen, thank you so much. We appreciate it.
    With that, the Committee stands adjourned.
    [Whereupon, at 12:14 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                [all]
</pre></body></html>
